Department of Health and Human Services

        OFFICE OF
   INSPECTOR GENERAL




   MEDICARE PAYMENTS TO
  OIG EXCLUDED PHYSICIANS




                   JUNE GIBBS BROWN
                    Inspector General

                       AUGUST 2000
                      OEI-07-98-00380
                         OFFICE OF INSPECTOR GENERAL

The mission of the Office of Inspector General (OIG), mandated by Public Law 95-452, as
amended by Public Law 100-504, is to protect the integrity of the Department of Health and
Human Services programs as well as the health and welfare of beneficiaries served by them. This
statutory mission is carried out through a nationwide program of audits, investigations,
inspections, sanctions, and fraud alerts. The Inspector General informs the Secretary of program
and management problems and recommends legislative, regulatory, and operational approaches to
correct them.

                           Office of Evaluation and Inspections

The Office of Evaluation and Inspections (OEI) is one of several components of the Office of
Inspector General. It conducts short-term management and program evaluations (called
inspections) that focus on issues of concern to the Department, the Congress, and the public. The
inspection reports provide findings and recommendations on the efficiency, vulnerability, and
effectiveness of departmental programs.

OEI's Kansas City Regional Office prepared this report under the direction of James Wolf,
Regional Inspector General, and Brian Pattison, Deputy Regional Inspector General. Principal
OEI staff included:

REGION                                                  HEADQUARTERS

Michael Presley Barrett, Project Leader
                Jennifer Antico, Program Specialist

Tricia Fields, Program Analyst
                         Barbara Tedesco, Mathematical Statistician

Perry Seaton, Team Leader
                              Brian Ritchie, Program Analyst

                                                        Scott Horning, Program Analyst





      To obtain copies of this report, please call the Kansas City Regional Office at 816-931-2544.
          Reports are also available on the World Wide Web at our home page address:

                                     http://www.hhs.gov/oig/oei/
                          EXECUTIVE                  SUMMARY

PURPOSE
         To determine the extent to which OIG excluded physicians in a fee-for-service setting
         might be providing and billing for services rendered to Medicare beneficiaries.

BACKGROUND
         Congress and the Secretary have entrusted the Office of Inspector General (OIG) with a
         variety of authorities under which practitioners who are unqualified, or abusive or who
         commit fraud may be excluded from Medicare and other Federal health care programs’
         participation. The intended effect of these exclusions is that no payment may be made for
         services that the excluded provider has rendered, ordered, or prescribed to a Medicare or
         Medicaid beneficiary or a receiver of services under any other Federal health care
         program. Needless to say, it is unlawful for any provider to submit or cause to be
         submitted claims to the Medicare program once they have been notified of the exclusion
         action.

         We obtained cumulative exclusion data through 1997 from the OIG Office of
         Investigations (OI) of all physicians for which we could identify a Unique Physician
         Identification Number (UPIN). This inspection focused on physicians in the fee-for-
         service setting. Our population did not include a number of excluded suppliers, nurses and
         other healthcare providers and therefore is limited in scope. We matched this data against
         Health Care Financing Administration (HCFA) payment data for 1997. Related to this
         match, we contacted each Medicare carrier for information on the reasons and the basis
         for any payments made to excluded physicians. Based upon these contacts we calculated
         a Medicare overpayment amount.

FINDINGS
Few Payments Were Made To Excluded Physicians In Fee-For-Service Medicare

         Most payments made to excluded physicians were proper. We found that most
         Medicare payments made to excluded physicians in the fee-for-service setting were
         proper. These payments were due to unassigned first claim services or services rendered
         as a result of an OIG waiver for medically underserved areas.

         Some payments were questionable. We found 12 physicians in which claims were
         processed where the Unique Physician Identification Number (UPIN) belonged to an
         excluded physician but the Provider Identification Number (PIN), upon which payment
         was made, belonged to a non-excluded physician. Payments for these claims totaled
         $90,654.

OIG Excluded Physicians                          1                                OEI-07-98-00380
         A small number of improper payments were made to excluded physicians. Based
         upon our UPIN match we found that improper payments have been made to
         21 physicians, totaling $ 35,833.

Improper Payments Were Made Mostly As The Result Of Human Error

         Of the 27 carriers in existence in 1997, 13 made improper payments to OIG excluded
         physicians. Nine carriers made these payments due to employee processing errors of
         which two made improper payments, but later recovered them. Other payments were
         made when excluded physicians submitted new applications for new provider numbers,
         and only one improper payment was due to a system error.

Carrier Staff Raised Some Concerns Regarding The Timeliness, Completeness,
And Reliability Of Exclusion Data

         The information provided to carrier personnel implementing the exclusion was not always
         complete and updates were not always received by them on a monthly basis. Social
         Security numbers, birth dates, and UPINs were sometimes missing, making proper
         identification of the particular excluded physician difficult for the carrier. In one instance,
         this resulted in an improper payment.

CONCLUSION

         Our match of exclusion data to HCFA payments did not include all OIG excluded
         providers, only physicians in the fee-for-service setting where all appropriate data is
         available. For this particular group the exclusion system seems to work well. Even there,
         however, it is not perfect. The problems, while not serious, need to be solved. HCFA is
         responsible for sending notice of exclusions to the carriers. It states that as of January
         1999, it has implemented protocols for sending out exclusion data on a monthly basis in
         electronic format. Medicare carriers now need to ensure that their staff who are
         responsible for processing the exclusions receive this information timely and take
         appropriate action on it. Meanwhile, it is important that the OIG, HCFA, and Medicare
         contractors work in concert to make further improvements to the system to prevent
         payments to excluded physicians.

         It is also worth noting that the limitations and difficulties we found in our efforts to match
         exclusion data with health care providers working in the medical field who do not have
         UPINs, or who may provide services in a managed care setting, is a cause of concern.




OIG Excluded Physicians                             2                                  OEI-07-98-00380
AGENCY COMMENTS

We solicited and received comments on our draft report from HCFA, which agreed with our
findings and recommendations. HCFA also expressed a willingness to work with the OIG to
further strengthen the processes of notifying Medicare contractors of excluded individuals and
effecting their exclusion from Federal programs. The full text of HCFA’s comments are included
in Appendix B.




OIG Excluded Physicians                       3                               OEI-07-98-00380
                          TABLE                     OF             CONTENTS

                                                                                                                        PAGE


EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1


INTRODUCTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5


FINDINGS


         Few Payments Were Made To Excluded Physicians In Fee-For-Service Medicare . . . . . 8


         Improper Payments Were Made By Carriers, Mostly As The Result Of Human Error . . . 9


         Carriers Raise Some Concerns Regarding Exclusion Data . . . . . . . . . . . . . . . . . . . . . . . 9


CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11


APPENDIX


         A: Reasons for Payment . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12


         B: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13





OIG Excluded Physicians                                        4                                           OEI-07-98-00380
                              INTRODUCTION

PURPOSE

         To determine the extent to which OIG excluded physicians in a fee-for-service setting
         might be providing and billing for services rendered to Medicare beneficiaries.

BACKGROUND

         Congress and the Secretary have entrusted the Office of Inspector General (OIG) with a
         variety of authorities under which practitioners who are unqualified, or abusive or who
         commit fraud may be excluded from Medicare and other Federal health care programs’
         participation. Examples of circumstances on which an exclusion would be predicated
         include conviction of a crime related to health care fraud, license revocation by a State
         licensure board, and finding of substandard care by a Medicare Peer Review Organization.
         In recent years, the OIG has implemented some 2,000 - 3,000 exclusions of varying
         durations. The intended effect of these exclusions is that no payment may be made for
         services that the excluded provider has rendered, ordered, or prescribed to a Medicare or
         Medicaid beneficiary or a receiver of services under any other Federal health care
         program. Needless to say, it is unlawful for any provider to submit or cause to be
         submitted claims to the Medicare program once they have been notified of the exclusion
         action.

         Direct notification of exclusions is made to the subject, Medicaid State agencies, and State
         licensing boards (where appropriate). The Health Care Financing Administration (HCFA)
         is provided a listing of all exclusions and reinstatements. Also, interested parties are able
         to identify excluded providers by virtue of their broad access to OIG exclusion data which
         includes Internet access, queries to the National Practitioner Data Bank, Federal Register
         publications, and the General Services Administration-sponsored Federal debarment
         listing. If this information is not being used to timely identify providers that have been
         excluded, it can be potentially harmful to Federal programs and their beneficiaries, and
         could result in a diminishing of the program sanction’s deterrent and remedial effects.

         The HCFA contracts with insurance companies, called carriers, to process and pay claims
         for covered Part B services. They also perform other administrative tasks, such as
         reviewing claims and ensuring that any mistaken payments are identified and returned to
         the Medicare program. It is also the responsibility of the carriers to identify and
         implement exclusions imposed by the OIG and transmitted to the carrier by HCFA.




OIG Excluded Physicians                            5                                 OEI-07-98-00380
         According to HCFA’s instructions to Medicare carriers, a listing containing exclusion and
         reinstatement/withdrawal actions is distributed to the carriers on a monthly basis. The
         carriers are instructed to use the information contained in this listing to determine whether
         a provider is eligible for payment and to “ensure that sanctioned providers are not being
         inappropriately paid.” Carriers are responsible for ensuring that no payments are made for
         items or services furnished, ordered, or prescribed by excluded providers after the
         effective date of the sanction.

         As one aspect of detecting excluded physicians, Medicare issues a national Unique
         Physician Identification Number (UPIN) used for specific identification of each
         participating physician. In addition, Medicare contractors make payments for services
         based upon Provider Identification Numbers (PINs) issued for each practice setting.
         HCFA guidelines require that carriers deny payment to excluded providers and that PINs
         for excluded providers be taken out of an active status. Contractors edit for denial of
         payment through a process of “flagging” which then requires all claims for that PIN to be
         manually adjudicated.

         Proper recording of identifying information regarding excluded persons is necessary to
         ensure that claims are not improperly paid. It also ensures that excluded providers do not
         become newly enrolled by other carriers or re-enrolled with the same carrier.

         The carriers’ exclusion processes have similar basic features. When a provider enrolls s/he
         submits an application. The carrier searches for the provider in HCFA’s Publication 69,
         which includes excluded providers, and in other sources of exclusion information that it
         collects and stores. If the provider is found to be excluded the application is denied.
         Carriers attempt to verify previous provider numbers with the UPIN registry to determine
         whether providers have practiced in another State. When found, the carrier also verifies
         the provider’s good standing in that State.

         When a monthly exclusion update is received, a search for the provider is made on the
         carrier’s system of active providers. The carrier then “flags” the system so that claims will
         not be automatically paid. This forces claims submitted by that provider, or by
         beneficiaries submitting unassigned claims for that provider, to be manually adjudicated.
         If the claim is unassigned and it is a first time service for that beneficiary, the claim is paid
         and a letter is sent to both the beneficiary and the provider notifying them of the provider’s
         excluded status. The same is true for some emergency services furnished by excluded
         providers. Claims for such services or services provided in geographic areas for which the
         exclusion has been waived are paid with no notification.

METHODOLOGY

         The original scope of this inspection included all OIG excluded persons but ultimately
         included only physicians who had an identifiable UPIN or Social Security number. Our


OIG Excluded Physicians                             6                                   OEI-07-98-00380
         ability to determine whether each provider received payment was severely limited due to a
         number of factors. Managed care organizations do not submit claims for services
         rendered to Medicare beneficiaries. Instead they are paid an amount based on the number
         of beneficiaries in their program. Therefore, we were unable to determine if any OIG
         excluded provider rendered services to a beneficiary in a managed care setting. Also,
         nurses and nurses aides, which make up the majority of the excluded providers in 1997,
         cannot submit their own claims. We were therefore unable to determine whether any of
         these types of providers may have received payment for services to Medicare beneficiaries.
         We did attempt to identify excluded providers who received payment from an organization
         with a Medicare contract by requesting income information from the Social Security
         Administration. Our request was denied and we were therefore unable to make such a
         determination.

         We obtained cumulative exclusion data through 1997 from the OIG Office of
         Investigations (OI). From this data we chose those providers excluded for all of 1997.
         That is, to be included in the study, a physician must have been excluded from Medicare
         prior to January 1, 1997 and had not applied for reinstatement through
         December 31, 1997. This resulted in a data file of more than 5,000 providers, the
         majority being individuals not required to have UPINs (i.e., nurses, nurses aides). In some
         instances we were unable to determine whether a provider was a physician and therefore
         required to have a UPIN. Also, the data records for some providers in the file were
         missing UPINs and, as an alternative, we used their Social Security numbers, if available,
         to obtain that number. The final list included 1,594 excluded physicians with UPINs or for
         which a Social Security number and UPIN could be identified.

         We matched this list against the 1997 Physician Summary File which shows total dollars
         paid by Medicare for each active or inactive UPIN during the year. For each matched
         physician, we obtained information on each line item from the National Claims History
         File. Based upon the match, we contacted each Medicare carrier that made any payment
         to an excluded physician. Contacts included those departments whose responsibility it
         was to enroll physicians as well as those whose responsibility it was to deny payment. We
         determined the basis for the payment and the carrier’s awareness of the physician’s
         excluded status, and discussed the processes used by that carrier to prevent payment from
         being made. Based upon these contacts we calculated an overpayment amount.

         We also conducted interviews with the appropriate staff at 27 carriers to determine the
         general usefulness and timeliness of exclusion data. We questioned the carriers on their
         source of exclusion data, as well as the timeliness, completeness, and usefulness of the
         exclusion data.

         We conducted this inspection in accordance with the Quality Standards for Inspections
         issued by the President’s Council on Integrity and Efficiency.



OIG Excluded Physicians                           7                                OEI-07-98-00380
                                      FINDINGS

Few payments were made to excluded physicians in fee-for-
service Medicare
         We identified a relatively small number of excluded physicians where payment had been
         made. These fall into the three categories of proper payments, questionable payments, and
         payments which were improperly made to the excluded physician. Overall we found that
         59 physicians received payments for providing services to Medicare beneficiaries.

Most payments made to excluded physicians were proper

         While excluded, 28 physicians were correctly paid because services were rendered for
         emergency services (those services provided in a location other than a hospital setting),
         unassigned first claim services, or services rendered as a result of a waiver being granted
         for medically underserved areas. Appendix A provides a detailed breakdown of these
         excluded physicians and the basis for payment.

Some payments were questionable

         Payments for claims containing an excluded physician’s UPIN were made to 3 group
         practices in the amount of $4,529. These claims were paid based on the Provider
         Identification Number of a non-excluded physician; however, the claims also contained the
         UPIN of an excluded physician. In 9 cases carriers paid claims amounting to $86,115 to
         non-excluded physicians who were not in group practices. In our review of these cases,
         we identified 8 excluded physicians whose UPIN was included on the claim forms. The
         ninth case involved one of these physicians who was paid by two different carriers. These
         carriers’ systems edits were not designed to detect the UPIN, but only the Provider
         Identification Number. The fact that these UPINs did not trigger a review by the carriers
         indicates a vulnerability in the review process. We were unable to determine why the
         UPIN of these excluded physicians were on the claims.

A small number of improper payments were made to excluded physicians

         Out of 1,594 OIG excluded physicians who have UPINs in a fee-for-service setting, we
         found improper payments to 21 physicians, totaling $35,833. These payments were either
         paid in error or to a physician who submitted a new application and was improperly
         assigned a new Provider Identification Number. Also, in one instance, the physician was
         excluded and then died. When this occurred, the death date overrode the exclusion date in
         the carrier’s claim payment system thereby allowing the physician’s office or estate to be
         paid.

OIG Excluded Physicians                            8                                 OEI-07-98-00380
Improper payments were made mostly as the result of
human error
         Of the 27 carriers in existence in 1997, 13 made improper payments to OIG excluded
         physicians. Nine carriers made these payments due to employee processing errors. Two
         of these carriers later recovered them. Other payments were made when excluded
         physicians submitted new applications for new Provider Identification Numbers, and one
         improper payment was due to a system error. The death date overrode the exclusion date
         in the carrier’s claim payment system thereby allowing the physician to be paid.

Carrier staff raise some concerns regarding exclusion data
         Although relatively few payments were made to physicians who had been excluded, staff
         within the carrier who are responsible for the processing of these actions identified some
         problems associated with exclusion data that make it difficult to identify and deny payment
         to excluded providers.

         Timeliness

         According to HCFA’s instructions to carriers, a formal listing (Publication 69) containing
         exclusion and reinstatement/withdrawal actions taken is distributed to the carrier on a
         monthly basis. The carrier is instructed to use the information contained in this listing to
         determine whether a provider is eligible for payment and to “ensure that sanctioned
         providers are not being inappropriately paid.” Carriers are responsible for ensuring that
         no payments are made to excluded physicians for services after the effective date of the
         sanction.

         Staff from eight other carriers indicated that although they received updates monthly,
         there was a lag time between the exclusion date and their notification of that exclusion.
         Also, staff from four of these carriers noted that timeliness of the monthly updates had
         improved in the months prior to our inquiry. Staff implementing exclusions from one
         carrier stated that they did not receive information on a monthly basis.

         Completeness And Reliability

         It is important that carrier staff have full information to identify the excluded person. 

         They report that the monthly information provided is not always useful to them. Social

         Security numbers, birth dates, and UPINs may be missing, making proper identification

         difficult. In one instance, a provider married, changed her name, and re-enrolled under her

         new name. Because her Social Security number was not included in the exclusion data

         and her background was not checked, she was improperly paid for services provided 




OIG Excluded Physicians                            9                                 OEI-07-98-00380
         to Medicare beneficiaries. It is noted that carriers were not able to require Social Security
         numbers on enrollment forms prior to September 1999.

         We were told by such carrier staff that they do not rely exclusively on HCFA’s Publication
         69 monthly update listing. They obtain exclusion information from other sources as well:
         the OIG’s web site of excluded providers; General Services Administration’s web site
         covering all debarred individuals; letters from the OIG (discontinued after January 1,
         1998); and letters from State licensure boards. Although these sources are useful, they are
         not necessarily identical.




OIG Excluded Physicians                           10                                 OEI-07-98-00380
                                CONCLUSION

Our match of exclusion data to HCFA payments did not include all OIG excluded providers, only
physicians in the fee-for-service setting where all appropriate data is available. For this particular
group the exclusion system seems to work well. Even there, however, it is not perfect. The
problems, while not serious, need to be solved. HCFA is responsible for sending notice of
exclusions to the carriers. It states that as of January 1999, it has have implemented protocols for
sending out exclusion data on a monthly basis in electronic format. Medicare carriers now need
to ensure that their staff who are responsible for processing the exclusions receive this information
timely and take appropriate action on it. Meanwhile, it is important that the OIG, HCFA, and
Medicare contractors work in concert to make further improvements to the system to prevent
payments to excluded physicians.

It is also worth noting that the limitations and difficulties we found in our efforts to match
exclusion data with health care providers working in the medical field who do not have UPINs, or
who may provide services in a managed care setting, is a cause of concern.


AGENCY COMMENTS

We solicited and received comments on our draft report from HCFA, which agreed with our
findings and recommendations. HCFA also expressed a willingness to work with the OIG to
further strengthen the processes of notifying Medicare contractors of excluded individuals and
effecting their exclusion from Federal programs. The full text of HCFA’s comments are included
in Appendix B.




OIG Excluded Physicians                          11                                 OEI-07-98-00380
                                                                              APPENDIX A

                                   Reasons For Payments


                                                  NUMBER OF                    AMOUNT OF
 TYPE OF PAYMENT                                  PHYSICIANS                   PAYMENT

 Improper Payments:

    Death Date Overrode Exclusion Date             1                                             $27.50

    Claims Paid In Error                          14                                         $17,775.28

    Physician Submitted Application For And
    Was Assigned A New UPIN                        4                                         $16,679.24

    Claims Paid And Later Recovered                2                                          $1,351.47

 Total Improper Payments                          21                                        $ 35,833.49



 Questionable Payments:

    Excluded UPIN Included On Non-
    Excluded Physician’s Claim For Payment         9                                         $86,115.62

    Payments To A Group Practice                   3                                          $4,529.37

    Carrier Claims No Payment Made                 1                                               $9.05

 Total Questionable Payments                      13                                         $90,654.04



 Proper Payments:

    Unassigned First Claim/Emergency              16                                         $12,418.58

    Recycled UPIN - Payments Not Received
    By An Excluded Physician                       5                                          $3,751.01

    Sanction Waived For Underserved Area           5                                        $124,716.26

    The UPIN Does Not Belong To The
    Excluded Physician, Therefore No
    Improper Payments Were Made                    6                                         $70,478.28

 Total Proper Payments                            32                                       $ 211,364.13

 TOTAL PAYMENTS                                   59*                                       $337,851.66

 *Five physicians received payment from more than one carrier and payments made to two physicians fall
 into two separate categories.


OIG Excluded Physicians                           12                                  OEI-07-98-00380
                                             APPENDIX B

                          Agency Comments





OIG Excluded Physicians          13             OEI-07-98-00380
OIG Excluded Physicians   14   OEI-07-98-00380
